J

Supreme Court, U.S.
FILED

ri-

■ A.,

AUG 0 3 2020

%

OFFICE OF THE CLERK

20-8303
W

No.
In The

Supreme Court of tfie ©nftetr &>tate«
DONG SHENG HUANG,
Petitioner,
v.

JALEA JOECHELLE HILL, et ai.

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Dong sheng Huang
8826 Neff Street, Houston,TX, 77036
Tel: 408-646-9007
Email: lockerp@yahoo.com

ORIGINAL

RECEIVED
JUN 2 - 2021

1

f

»

-?

> .(US

0*j. I*'*

i

i

!

c® £ 0 31M
I

u? ■*:••?■ *r.* 3:^0

♦

1

v,

.y

i

*

•V.

•'V; •
*
4-.

t

:

*
*••. v

1

t

•>

4

■i

to
•f
•**

"

)

i

■

I

*•

'

.„>•

4 <

ti

V.

»

i. f

4
•»4

l

v

\
*

',A

i

/

v,

■ • i

t<

\ T> ;• v.
»f

T

■4Z

4
J

*

i

f

,•

*
V

i*

i

:,-■
.-■

4

;•

*;
1

t

*

*
'*

to

*

¥

5

ir
)
*•

i.

QUESTIONS PRESENTED

After warrantless arrest by officers, petitioner filed 42 U.S.C section 1983
fourth amendment and fourteenth amendment claims, false imprisonment and
malicious prosecution claims under texas common law. Questions presented are:
1. Whether fourth amendment and fourteenth amendment claims were dismissed
wrongly at Rule 12(b)(6) motion stage.
2. Whether fifth circuit erred in not reviewing motion for new trial appeal and

district court erred in denying motion for new trial.
3. Whether confidentiality order shall be enforced and medical records shall be

protected from disclosure.
4. Whether district judge erred in appeal certification and shall recuse.

)

I
'N
■J

:•

\

f

k

\

f

:

i

i\

t

*

?-

4

?

j

;

♦

V-

1*

i

i

y

i

J

1

c

j

r

; *»

i

i

1

^s

5

j •.

*

*

r

»

\

*

j

*
i .;

?

*

11

LIST OF PARTIES AND RELATED CASES

Petitioner is Dong Sheng Huang, Respondents are Jalea Joechelle Hill, Karea
Marie Williams, Murphy Oil USA Inc, Michael Wayne Kelemen, Richard Dricks,
City Of La Marque, Randall Aragon, 409 Towing & Recovery, Christina Balvantin.
No cases in other courts were related to this case in this court.

r
y

»

sj

131

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
LIST OF PARTIES AND RELATED CASES

i

11

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1

A. Factual background

1

1. Totality of circumstances and fact of the arrest

1

2. After arrest

5

3. Kelemen falsified info to incriminate Huang

6

4. Balvantin’s misconducts in criminal prosecution

7

B. Procedure history
REASONS FOR GRANTING THE PETITION

8
9

I. Fifth circuit’s dismissal of section 1983 claims conflicts with other circuits
and Supreme Court precedents
9
A. Fifth circuit erred in finding probable cause of arrest
1. Didn’t use totality of circumstances and facts approach

10
10

IV

2. Didn’t consider veracity of info

12

3. Didn’t consider info dissipating probable cause

13

4. Didn’t consider objective reasonableness of Kelemen’s conduct.... 14
B. Fifth circuit failed to recognize 14th amendment violation

15

C. Qualified immunity of Kelemen, Dricks, Balvantin, Aragon shall be
denied ....................................................................................................

16

D. Claims against Kelemen, Dricks, City of La Marque, Aragon, 409
Towing, Balvantin shall be restored..................................................

17

II. Motion for new trial shall be granted

17

A. Fifth circuit’s refusal to review jury trial conflicts with supreme
court opinion and is wrong................................................................

18

B. Multiple errors during jury trial warrant new trial

19

1. Inadequate time for jury charge review and conference

19

2. Jury Misled, Confused By Jury Charge

21

2.1. Harmful, fundamental false imprisonment and malicious
prosecution instructions errors............................................ 21
a. False imprisonment instruction error (page 5-6)

21

b. Malicious prosecution instruction error (page 7-8)

22

2.2. Page 9 of jury charge is vague and irrelevant

23

2.3. Failed to instruct

24

2.4. Instructions internally contradictory

25

2.5. Didn’t rule and instruct plaintiffs theory

25

2.6 All instructions are too general, not case specific.

25

i

u*

l

V

3. Jury misled by non-admitted defendant exhibit 1,1a and
frustrated by non-original Murphy USA video..................

25

4. Plaintiffs Exhibit 11, 19, 22 were not admitted into evidence

27

5. Hill and Williams not excluded from courtroom

29

III. Fifth circuit erred in failing to enforcing confidentiality discovery order
and protecting petitioner’s medical records and contravened
Supreme Court precedent
30
A. Fifth circuit erred in affirming breach of confidentiality order

30

1. John violated confidentiality order three times knowingly

30

2. Fifth circuit shall punish respondent and compensate petitioner.... 32
3. Relief Requested
B. Petitioner’s medical records shall not be disclosed and used as
Defendant’s trial exhibit 7, 8...........................................................
IV. Fifth circuit shall revoke district judge’s appeal certification and
order district judge recusal................................................................

32

33

35

A. Appeal certification is against Supreme Court precedent

35

B. District judge shall recuse per 28 U.S.C §455

36

1. Refused to disclose records

36

2. Refused to order record correction

37

3. Refused to protect petitioner’s right and interest

37

4. Treat petitioner unfairly

38

5. Refused to consider merit issues on petitioner’s pleading

38

6. Intentionally misinterpreted petitioner’s statements to support
its opinion............................................................................................

38

VI

7. Created litigation problems to petitioner and refused to correct it. 39
V. Supreme Court shall use its supervisory power to correct
lower courts5 outrageous, unjust conducts ........................

39

VI. Questions involved are of exceptional public importance

40

CONCLUSION.

40

APPENDIX
INDEX TO APPENDICES
Volume 1
APPENDIX A: Fifth Circuit Opinion (02/03/2020)

A001

APPENDIX B: District Court Final Judgment ( 06/14/2018)

A006

APPENDIX C: District Court Memorandum And Opinion (01/06/2017)
A014
APPENDIX D: Stipulated Confidentiality Order

A038

APPENDIX E: Order Denying Motion for Sanctions for Violations
of Confidentiality .....................................................

A047

APPENDIX F: Order Denying Motion for Sequestration and Grant
Defendant5 Motion in Limine regarding insurance ..

A049

APPENDIX G: Order Providing Medical Records

A050

APPENDIX H: District Court’s Appeal Certification And Order Denying Motion
For New Trial
A051
APPENDIX I: Order Denying Motion To Recuse, Reconsideration Of Appeal
Certification, Sanction for violations of Confidentiality Order
......................................................................................... A053
APPENDIX J: Fifth Circuit Order Denying Rehearing and Rehearing
En Banc (03/04/2020) ......................................................

A055

r

f/

vn

APPENDIX K: District Court Order Denying Motion To Reconsider
Memorandum &Opinion (03/21/2017)........................

A057

APPENDIX L: Relevant texts of constitutional and statutory provisions
involved ............................................................................... A058
Volume 2

APPENDIX M: Second Amended Complaint With Attached Exhibits ....A065
APPENDIX N: Appellant’s Brief, p9-27

A125

APPENDIX 0: TX Pattern jury charge PJC 6. l(false imprisonment), PJC 6.4
(malicious prosecution) and PJC4.1(2016)
A145
APPENDIX P: Jury Charge

A150

i/-'

'

i.

vm

TABLE OF AUTHORITIES

Cases

Page

Geter, 882 F.2d 167(5th Cir.1989)

17

Wallace, 861 F. 25 Supp.2d 587(Dist. Court, D. Maryland, 2012)

28

Bevier 806 F.2dl23, 127 (7th Cir.1986)
Bernier, 581 F.Supp.71, (District Court, W.D. Michigan, S.D, 1983)
Bigford, 834 F. 2d 1213 (5th Cir.1988)

13,17
28

13,15

Broadcast Satellite, 323 F. 3d 339(5th cir.2003)

21

Castellano 352 F.3d 939 (5th Cir.2003)

16

Christiansburg Garment Co,434 US 412(Supreme,1978)

35

Crown Life Ins, Co., 22S.W.3d 378(TX supreme,2000)...

21

Fuller, 950 F.2d 1437(9th Cir.1991)

15

Hammond Packing Co, 212 U.S. 322(US Supreme, 1909)

32

Hebron, 18 F.3d 421(7th Cir, 1994)

14

Helminski, 766 F. 2d 208 ( 6th Circuit, 1985

29

Howard, 707 F.2d215(5th Cir,1983).

35

In re Chevron U.S.A., 121 F.3d 163 (5th Cir. 1997)

36

Jaffee, 518 U.S.1 (Supreme, 1996)

36

Laverie, 517 SW 3d 748(TX supreme, 2017)

24

Lileky , 510 U.S. 540(Supreme,1994)

36

Mann, 319 F. 2d 404(5th Cir.1963)...

25

'
A

f

IX

Maye,404 US 189 (Supreme, 1971).

19

McComb, 336 US 187 (Supreme, 1949).

32

Miller,650 F. 2d 1365(5th Circuit.1981).

29

Mohawk Industries, Inc, 558 US 100(Supreme 2009)

32,35

Montgomery Ward & Co,311 U.S.243(Supreme,1940)

19

Moore 754 F.2d 1336 (7th Cir.1985)

15

Nape, 360 US 264 (Supreme, 1959).....

16

Olson 771 F. 2d 277(7th Circuit, 1985)

15,17

Richey,952 SW 2d 515(TX Supreme, 1997)..........................................

24

Safford Unified School Dist. No. 1, 129 S. Ct. 2633(Supreme, 2009)

13

Salmero, 579 F.3d 787 (7th Cir. 2009).................................................

32

Schneider 552 F.2d 593, 595 (5thCir.l977)

15

Streber 221 F.3d 701(5th Cir. 2000)...........

18

Statutes
28 U.S.C §1331

1,8

28 U.S.C §1367

1,8

42 U.S.C§1988

1

28 U.S.C. § 1254(1).

1

28 U.S.C §1343(a)(3)
28 U.S.C §455

1,8
1, 36

28 U.S.C§1915

1

42 U.S.C §1983

1,8,9

X

Other Authorities
Judge Hanks5 procedure 6(C)(7)

30

Rules
Federal Rules of Civil Procedures Rule 12(b)(6)

1,8,9

F.R.A.P.10 (a)

18

F.R.C.P.26(b)(l)

34

F.R.C.P. Rule 33

29

F.R.E 411

28

F.R.E Rule 1001, 1002

26

F.R.E. rule 403

27

Federal Rules Of Evidence Rule 403,411,1001,1002

1

Treatises
TX pattern jury charge (2016) PJC 6.1, PJC 6.4

21

Regulations
TX Health And Safety Code Chapter 611 Sec. 611.002

30

Texas Civil Practices and Remedies Code 41.003

25

Texas Penal Code §30.5

1

Constitutional Provisions
14th amendment
4th amendment

15, 16, 17, 40
16, 17, 40

Constitutional amendments IV

1

Constitutional amendments XIV

1

•-y

l

PETITION FOR WRIT OF CERTIORARI
Petitioner, Dong sheng Huang respectfully prays that a writ of certiorari
issued to review the judgment below.
OPINIONS BELOW
Fifth circuit’s unpublished opinion is at Appendix A. District court’s final
judgment at Appendix B and Memorandum and Opinion at Appendix C.
JURISDICTION
Fifth circuit issued judgment on 02/03/2020 and denied petition for panel
rehearing and en banc rehearing on 03/04/2020 (Appendix J). The
jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
CONSTITUIONAL AND STATUTORY PROVISIONS INVOLVED
Constitutional amendments IV, XIV, 42 U.S.C §1983, §1988, 28 U.S.C
§1343(a)(3), §1331, §1367. 28 U.S.C§1915, Federal Rules of Civil Procedure
Rule 12(b)(6), Federal Rules Of Evidence Rule 403,411,1001,1002, 28 U.S.C
§455,Texas Penal Code §30.5. Their relevant texts are reproduced in
Appendix L.
STATEMENT OF THE CASE
A. Factual background
1. Totality of circumstances and fact of the arrest
Huang lived in Harris County and travelled to Galveston County area on

j

2

01/05/2014. Around 9:21pm he drove by Murphy USA gas station in City of
La Marque to cash TX lottery scratch-off tickets. The gas station is kiosk type
gas station: customer standing outside booth interacts with cashier inside
through sliding window in kiosk front. Huang had never been to this gas
station and didn’t know two cashiers : Jalea Joechelle Hill(“Hill”), Karea
Marie Williams(“Williams”). Cashier’s employer is Murphy Oil USA Inc. Hill
validated Huang’s tickets for $41 winning on station’s lottery terminal but
didn’t give back Huang his player receipt1. Huang then bought a new $5
scratch-off ticket, got back $36 cash and Murphy USA sales receipt for $5
ticket from Williams. Huang asked cashier for checking if $5 ticket is winner,
Hill validated it and told Huang it’s $5 winning. Hill picked up the two
receipts printed out and wanted to throw it away. Huang asked for his player
copy. Hill said “I was never told by my supervisor to give back these”. Huang
told Hill: there were two copies, one is for retailer, one is for player, you keep
yours, I keep mine. Hill hesitated. Huang told Hill “I’ve been to many stores,
sometimes store doesn't give back the slip to me, but when I asked for the slip,
they all give back to me”. Hill still hesitated and wanted to throw away the
slips. Huang told her “if you don't give back the slip to me, how do I know
how much I won?” Hill then held the slip in her right hand and stretched out
1 when tx lottery scratch-off ticket is validated as winner (<$600 )at retailer lottery
terminal, two receipts were automatically printed out: retailer copy for retailer, player copy
for player. See appendix A103-A105

3

to Huang from several feet away. Huang had to stick his head ahead to see
what’s on the slip, which made him very unhappy. Hill gave Huang $5 cash
and said Tm smart, I’ve been to college”. To negate Hill’s claim of smartness,
Huang replied “No, you are dumb”. Hill shouted out “shut up, fuck you”. The
sliding window was instantly shut close. Huang was surprised by close of
sliding window and thought Hill shut close the sliding window (store
surveillance video showed Williams shut close the sliding window).Huang
lightly knocked the sliding window but window was not opened. No
communication possible, Huang walked away from the kiosk and back to his
car at gas pump. Huang called customer service phone number listed on
Murphy USA sales receipt to file complaint about two cashiers. Huang
thought the complaint will be quick but agent asked a lot of information.
Agent asked for black cashier's name, Huang didn't know. While talking with
agent, Huang saw Hill appearing from back side of the kiosk. Huang stepped
out of car, trying to get her name for agent. But Hill hurried away from
Huang without a word before Huang could even talk with her. Huang got into
his car and kept talking with agent, unaware that Hill called 911 in the kiosk
(A1072)until he watched store surveillance video and 911 call records later.
At end of about 8 minutes complaint, agent told Huang district manager
would call tomorrow to address this. Huang drove away hurriedly as he
2 Refers to appendix to this petition

4

shivered and got headache from the freezing cold weather. About one minute
after departing, Huang thought he needed to secure his Murphy USA sales
receipt for discussion with district manager tomorrow. He stopped by IHOP
restaurant parking lot, looking for receipt in his car but didn’t find it.
Guessing receipt may be dropped at gas pump where he was filing complaint,
he quickly drove back, parking slantly to the pump, so he could see what’s on
the ground. Not finding receipt on the ground, Huang took another quick
look inside the car. Still not finding receipt, Huang decided to quit as it got
too cold. Huang backed up his car to leave when coincidentally Officer
Michael Wayne Kelemen (“Kelemen”) from La Marque Police Department
(“LMPD”) arrived from behind. Huang braked his car curiously to see why
police came. Kelemen walked to Huang’s car, telling Huang not to leave, park
his car, Huang complied. Kelemen asked what happened. Huang answered
cashier refused to give back his player receipt for lottery winning. Kelemen
pop out in low sound “she misunderstood you”. Officer Richard Dricks
(“Dricks”) then arrived. Kelemen walked over to the other side of gas station
questioning Hill and Williams. Huang couldn’t hear the conversation but it’s
all recorded in Kelemen’s dash cam video, see sound script at Appendix A108>
Alll. Hill told Kelemen she refused to give Huang player copy receipt and
angered Huang. Hill said get off property before she called police and Huang
sat in parking lot for about 25 minutes, then left. Hill stated she knew Huang

5

was filing complaint with Murphy customer service during Huang’s 25
minutes stay. Kelemen asked Williams with info made up by himself “but she
told him several times to leave while he was laying here calling customer
service, correct?” Williams falsely confirmed yes. Kelemen walked back to
Huang, wanting to arrest Huang for criminal trespass. Huang argued with
Kelemen: nobody has asked him to leave, he left already before Kelemen
arrive, he returned to gas station to look for sale receipt, not to block pump,
it’s misunderstanding and not criminal trespass. Kelemen finally said “ok,
hell I would think they lied to me about it” but still proceeded to arrest
Huang immediately without further investigation, turned over Huang to
Dricks next to him. Dricks transported and booked Huang into LMPD Jail,
later transferred to Galveston County Jail.
2. After arrest
Huang’s car was towed by 409 Towing & Recovery(“409 Towing”) at
LMPD request. Kelemen returned to LMPD, prepared police report and
Affidavit for Warrant of Arrest and Complaint dated 01/05/2014(Appendix
A112-116). Huang paid $265 to bail him out of jail around 7am on 1/6/2014.
Huang paid $40 taxi to get to 409 Towing, paid $213.3 towing fee to get out
his car, then drove to LMPD to file complaint about the arrest with Chief
Randall Aragon(“Aragon”). That afternoon, Murphy USA district manager
Ken called Huang, apologizing for what happened and promised to

6

investigate but never contacted Huang afterwards. Galveston County DA
office filed criminal trespass charge against Huang on 2/4/2014. Christina
Balvantin (“Balvantin”) was affiant on the criminal charging document
Complaint and Information. After jury trial, Huang was acquitted and
judgment signed on 9/18/2014. All records related to the arrest were ordered
to be expunged by Galveston County District Court on 10/21/2014.
3. Kelemen falsified info to incriminate Huang
When questioning cashiers, Kelemen asked " but she told him several
times to leave while he was laying here calling customer service, correct?"
and Williams answered "yeah" to this question. Nobody has told Kelemen
this info, and Kelemen didn't witness the so-called "told him several times to
leave". Kelemen made up this question in order to solicit needed info from
Hill and Williams to arrest Huang. On affidavit, Kelemen included multiple
wrong info and deliberately falsified info to incriminate Huang for criminal
trespass (A112-A116). For example Kelemen's dash cam video showed Hill
didn't say to officer Kelemen the followings (A113, last para)
"Huang became upset and began using vulgar language towards her and
Williams. Hill stated that she had several customers behind Huang and
she requested Huang to leave the premises. Huang continued to stand at
the cashier's office and even punched the glass window but did not cause
any damage. After several more requests for Huang to leave the premises,
Huang left the cashier's office and began walking around the parking lot".
Instead video showed Hill said (A109, line 59-62):

7

"I mean, i've been living in Texas for long time, never got one. He is
demanding this like well i need to see what I’ve won. I said Ok here is the
paper, don't pass it out on my hand, that's rude. He sort of going off
ignorant, all the stuff, OK, get off my property???(sound unclear)"
4. Balvantin’s misconducts in criminal prosecution
Balvantin prepared and sworn as affiant to Complaint and Information
(“C&I”) On Affidavit, Kelemen wrote: Huang stated that Hill was lying about
the incident and he did not do anything wrong. This exculpatory info was not
included on the 02/04/2014 C&I. This info would have alerted reasonable
person to do further investigation before swearing to C&I but Balvantin
didn’t. Even during Huang's initial meeting with Assistant DA Richard
Hayes on 3/18/2014, no videos and 911 call recording were at DA office.
When Balvantin sworn to Amended C&I on 8/20/2014 ,Murphy USA store
surveillance video, LMPD event report, LMPD 911 call recording, Police
report and Affidavit, Kelemen's dash cam video were all in DA office. By
examining these materials, a reasonable person would have easily concluded
Hill, Williams, Kelemen lied about it, Huang didn't commit criminal trespass,
but Balvantin intentionally sworn falsely to C&I to prosecute Huang. On
Amended C&I, two piece of exculpatory info were intentionally omitted: one
is on affidavit where Kelemen wrote: "Huang stated that Hill was lying about
the incident and he did not do anything wrong." (A114), in his dash cam video
Kelemen said; "Ok. hey hell l would think they lied to me about it" (A110,
Line 115).

8

B. Procedural history
Huang, pro se and proceeding in IFP, sued respondents for civil rights
violation under 42.U.S.C §1983 and under texas common law, invoking
district court jurisdiction under 28 U.S.C. §1343(a)(3), §1331, and 28 U.S.C.§
1367. All parties were served with process but 409 Towing didn’t appear in
the case. After Huang’s 2nd amended complaint(A065), district court granted
Rule 12(b)(6) motion filed by counsels for Kelemen, Dricks, City of La
Marque, Aragon and Rule 12(b)(6) motion by counsels for Balvantin and
dismissed these claims at pleading stage (A014). Huang’s motion for entry of
default against 409 Towing was also denied (A037). Huang motioned the
court to reconsider but was denied(A057). The claims against Hill, Williams,
Murphy Oil USA Inc (“Murphy Defendants”) proceeded to discovery. District
court denied Huang’s motion to extend discovery deadline, motion to file 3rd
amend complaint and motion for summary judgment against Murphy
Defendants for its late response in violations of federal rule of civil procedure
rule 36. Jury trial was held on 2/26/2018, adjourned to 4/12/2018, 4/13/2018.
During jury trial, district court didn’t give parties adequate time for voir dire,
reviewing jury charge and charge conference, provided misleading, deficient,
contradictory jury charge, let non-admitted defendant’s exhibitl and la, non­
original Murphy USA store surveillance video to be used by jury, didn’t
exclude defendants and witness Hill and Williams from court during trial.

9

The jury found for Murphy defendants. District court denied Huang’s motion
for new trial and certified appeal would not be good faith and discontinued
Huang’s IFP status. Clerk entered final judgment on 6/14/2018. District court
denied Huang’s motion for recusal. During district court proceeding, Murphy
defendants’ counsel John filed Huang’s medical records into efiling system for
public view and violated stipulated confidentiality order three times but
district court failed to punish John and compensate Huang’s damage at
Huang’s request.
Huang timely appealed to 5th circuit and ordered relevant parts of jury
trial transcripts based on need of the appeal issues. Fifth circuit affirmed
district court’s granting of rule 12(b)(6)motions. Fifth circuit stated since
Huang didn’t order the whole jury trial transcript, the record was not
complete and refused to review Huang’s appeal of judgment for Murphy
Defendants. Huang petitioned for panel rehearing and en bac rehearing, the
petition was denied.
REASONS FOR GRANTING THE PETITION
I. Fifth circuit’s dismissal of section 1983 claims conflicts with
other circuits and Supreme Court precedents
Fifth circuit affirmed district court’s ruling on rule 12(b)(6) motion and
adopted district court’s analysis as its own so district court’s analysis will be
used as fifth circuit’s analysis here(A003). District court stated even cashier’s
info is not trustworthy and Kelemen failed to do complete investigation,

10

probable cause was established when Officer Kelemen had received a 911 call
informing him that the gas station employees had complained that "an
[AJsian male that will not leave and caused them a problem.”, when Huang
was still at the gas station when Kelemen arrived3, when cashiers told
Kelemen Huang blocked the gas pump, insulted Hill, hit the teller window,
and had refused to leave the property even after Hill threatened to call the
police.” (A029, page 16, line 11-22). This opinion erred in several ways:
A. Fifth circuit erred in finding probable cause of arrest
1. Didn’t use totality of circumstances and facts approach
Probable cause shall use totality of the circumstances approach, Illinois,
462 US 213,231-232(Supreme, 1983). The totality of circumstance&facts
pertaining to arrest pleaded on Huang’s complaint are: Huang asked for
player receipt for winning $5 scratch off ticket, Hill refused and but showed
the receipt to Huang. After exchange of words of smart and dumb, sliding
window shut close. No communication between Huang and cahiers
afterwards. Huang walked away from kiosk and filed complaint with Murphy
USA customer service, during which time Hill called 911, falsely reporting

3 District court misstated Huang’s allegation of facts here: Kelemen didn’t receive 911
call directly, but LMPD 911 dispatcher Kristen McDaniel (‘McDaniel”) relayed to Kelemen
“clerks advised an asian male that will not leave and caused them a problem”., Huang left
gas station before Kelemen arrived. He returned to gas station to look for his Murphy USA
sales receipt. Not finding receipt, Huang was leaving again when coincidentally Kelemen
arrived, see Factual Background section on this petition.

11

they asked Huang to leave but Huang didn’t leave. 911 dispatcher McDaniel
relayed to Kelemen “clerks advised an asian male that will not leave and
caused them a problem”. McDaniel didn’t tell Kelemen Huang received
notice to leave from clerk. Huang finished complaint and left. Huang
returned to look for sales receipt but didn’t find it. When Huang began to
leave again, coincidentally Kelemen arrived. Huang told Kelemen cashier
refused to give back player receipt for his winning scratch off ticket. Kelemen
said “she misunderstood you”. At this time Kelemen doubted the truth of
info from cashiers. Kelemen questioned two cashiers. Hill informed
Kelemen she refused to give Huang the winning scratch off receipt and
angered Huang. Hill said get off property before she called police and Huang
sat in parking lot for about 25 minutes, then left. Hill stated she knew Huang
was filing complaint with Murphy customer service during Huang’s 25
minutes stay. Finding no criminal trespass from Hill’s statement,
Kelemen asked Williams with info falsified by himself" but she told him
several times to leave while he was laying here calling customer service,
correct?” Williams falsely confirmed yes. So Kelemen intentionally
falsified material criminal trespass info and solicited confirmation
from Williams in order to arrest Huang. Kelemen returned to Huang
after questioning cashiers, wanting to arrest Huang. Huang argued with
Kelemen, stating he received no notice to leave, he left already before

12

Kelemen arrive. Kelemen finally realized “ Ok, hey hell I will think they lied
to me about it ” but still proceeded to make immediate arrest. So Kelemen
knowingly used false info to make wrong arrest.
The totality of circumstances and facts showed no criminal trespass
happened, cashiers lied about what happened, Kelemen knowingly made
wrong arrest based on false info. Fifth circuit considered part of
circumstances &fact and found probable cause(i.e. Info from LMPD 911 call
dispatcher, Huang was at gas station when Kelemen arrived, cashier told
Kelemen Huang blocked the gas pump ,insulted Hill, hit the teller window,
and had refused to leave the property even after Hill threatened to call the
police.”...) but didn’t consider other parts of circumstance & fact (Huang
drove away after he finished complaint, Huang returned to gas station to look
for sales receipt, not to block gas pump, Kelemen stated she misunderstood
you when he first questioned Huang. Hill told Kelemen Huang left after filing
complaint, Kelemen falsified material criminal trespass info and asked
Williams to confirm, Huang argued with Kelemen nobody has told him to
leave and Kelemen thought cashier lied to him ), this is against Illinois.
2. Didn’t consider veracity of info
Magistrate shall assess the "veracity" and "basis of knowledge" of
persons supplying hearsay information, Illinois, 462 US 213,232,239
(Supreme, 1983). "Probable cause exists where 'the facts and circumstances

13

within [an officer's] knowledge and of which [he] had reasonably trustworthy
information [are] sufficient in themselves to warrant a man of reasonable
caution in the belief that’ an offense has been or is being committed,” Safford
Unified School Dist. No. 1, 129 S. Ct. 2633,2639(Supreme, 2009). P Fifth
circuit didn’t assess probabilities of criminal trespass in factual contexts,
didn’t consider the reliability of witness statements but rigidly applied
criminal trespass’s two elements (cashier’s false statement to Kelemen about
asking Huang to leave and Huang didn’t leave) to assess probable cause, this
is against two
supreme precedents . Huang’s pleaded on his complaint that cashiers lied to
Kelemen, Kelemen fabricated info and asked Williams to confirm it, Kelemen
think cashier lied to him but still knowingly used cashiers’ lie to make arrest,
These pleadings negated any probable cause.
3. Didn’t consider info dissipating probable cause
“The continuation of even a lawful arrest violates the Fourth
Amendment when the police discover additional facts dissipating their earlier
probable cause... a police officer "may not close her or his eyes to facts that
would help clarify the circumstances of an arrest” Bevier,806 F.2d 123,128
(7th Cir.1986). Probable cause does not exist when a "minimal further
investigation" would have exonerated the suspect, Bigford, 834 F. 2d 1213,
1218,1219 (5th Cir.1988).

14

Probable cause was dissipated when Huang argued with Kelemen on
scene, stating nobody told him to leave; he left already before Kelemen
arrived; he returned to look for receipt, not to block pump and Kelemen
finally realized cashiers lied to him, fifth circuit failed to consider this.
4. Didn’t consider objective reasonableness of Kelemen’s conduct
When Kelemen arrived at scene, Huang told him cashiers won’t give
back his winning receipt. Kelemen responded “she misunderstood you” and
became suspicious of cashier’s report. Kelemen found no criminal trespass
when Hill said Huang left after 25 minutes phone complaint with Murphy
USA customer service. Disappointed by Hill’s info, Kelemen then himself
falsified info (but she[Hill] told him several times to leave while he was
laying here calling customer service, correct ?) and asked Williams to confirm
it. After Huang’s argument with Kelemen about not criminal trespassing,
Kelemen himself thought cashier lied to him, but still intentionally proceeded
to make immediate arrest, not to do further investigation.
A reasonable officer won’t make up material criminal trespass info and
asked Williams to confirm it. A reasonable officer, suspicious of cashiers’ info
and think cashiers lied to him, wouldn’t arrest but will stop arrest and do
further thorough investigation. Hebron, 18 F.3d 421, 423(7th Cir, 1994)
(“Sometimes information from or about a person claiming to be the victim of
crime would lead a reasonable officer to be suspicious, making further

15

investigation prudent—and, because the "reasonableness" standard of the
fourth amendment links the constitutional obligation to the standard of
prudent conduct, the officer must do more”). Moore 754 F.2d 1336, 1346 (7th
Cir.1985) (make a thorough investigation and exercise reasonable judgment
before arrest and detention). Fuller, 950 F.2d 1437, 1444(9th Cir.1991) (duty
to investigate further based on information obtained at the scene
of crime). A minimal further investigation by Kelemen would have clarified
the circumstances and Huang would not have been arrested but Kelemen
failed to do so. Probable cause does not exist when a "minimal further
investigation" would have exonerated the suspect, Bigford, 834 F. 2d 1213,
1219 (5th Cir.1988). Kelemen’s conduct in this arrest was not only
unreasonable, reckless but intentionally outrageous and criminal.
B. Fifth circuit failed to recognize 14th amendment violation
Fifth circuit stated Huang didn't cite to any authority that shows
Kelemen's falsifying info during on scene questioning, on police report and
Affidavit for Warrant of Arrest and Complaint is 14th amendment violation
(A030, at 17, last paragraph). That's not true. On 2nd amended complaint
35- 36(A082), Huang cited Olson 771 F. 2d 277,281 (7th Circuit, 1985)
(untruthful info on officer’s affidavit violated arrestee’s fourth amendment
rights), Schneider 552 F.2d 593, 595 (5thCir. 1977) (falseness in affidavit is
constitutional due process violation). Nape, 360 US 264,269

16

(Supreme, 1959)(Soliciting and use of false evidence, or let false evidence go
uncorrected when it appears is fourteenth amendment right violations). One
more authority cited here "Castellano's contention that the manufacturing of
evidence and knowing use of perjured testimony attributable to the state is a
violation of due process is correct". Castellano 352 F.3d 939, 958 (5th
Cir.2003) (en banc). So it's clearly established that manufacturing evidence,
use of false evidence or let false evidence go uncorrected when it appears is
14th amendment violation.
Huang pleaded Kelemen falsified info during on scene questioning, on
police report and Affidavit for Warrant of Arrest and Complaint, Balvantin
intentionally omitted exculpatory info on 02/04/2014 Complaint and
Information and failed to do further inquiry but let false evidence go away,
intentionally used false info and omitted material exculpatory info on
8/20/2014 Complaint &Information to file criminal charge against Huang,
this is exactly 14th amendment violation. So 14th amendment claims against
Kelemen and Balvantin shall not be dismissed.
C. Qualified immunity of Kelemen, Dricks, Balvantin, Aragon shall
be denied
From discussions above, the 4th amendment and 14th amendment right
were clearly established. Kelemen violated 4th amendment by intentionally
by making no-probable-cause arrest, violated 14th amendment by falsifying
info during on scene questioning, on police report and Affidavit. Kelemen

17

failed to do reasonable further investigation when he himself thought
cashiers lied before arresting Huang. So his qualified immunity shall be
denied. Bevier 806 F.2dl23, 127 (7th Cir.1986) (denying qualified immunity
for failing to make reasonable inquiries before making arrest). Geter, 882
F.2d 167,169 (5th Cir.1989) (deny qualified immunity for procuring false
identification by unlawful means or for deliberately concealing exculpatory
evidence);OZson 771 F.2d 277, 281 (7th Cir.1985) (deny qualified immunity
for including false statements in arrest warrant affidavit). Dricks violated 4th
amendment by failing to intervene to stop Kelemen’s arrest as bystander.
Balvantin violated 14th amendment by failing to correct false info provided by
Kelemen and even using it for criminal prosecution. Chief Aragon qualified
immunity shall be denied he acted with deliberate difference even Huang
complained to him about Kelemen’s violations.
D. Claims against Kelemen, Dricks, City of La Marque, Aragon, 409
Towing, Balvantin shall be restored
Fifth circuit dismissed claims against Kelemen, Dricks, Aragon, City of La
Marque, 409 Towing because it found probable cause of arrest from Huang’s
pleading. Fifth circuit thought false statements and use of false statements in
police report, affidavit for arrest warrant, criminal charging documents are
not 14th amendment violation. As discussed above, these are wrong, so the
claims against these respondents shall be restored.
II. Motion for new trial shall be granted.

18

A. Fifth circuit’s refusal to review jury trial conflicts with
supreme court opinion and is wrong.
Fifth circuit didn’t review Huang’s appeal of district court’s denial
motion for new trial because Huang didn’t order full trial transcript so
appellate record was not complete (A004).
There is no law/rule that mandate ordering full trial transcript for appeal
purpose, the court in Streber 221 F.3d 701(5th Cir. 2000) didn’t either. Trial
transcript is only part of appellate records, there are other appellate records
available, see F.R.A.P.10 (a). Unnecessary transcript will add up litigation
costs and delay case processing.
Of the 13 errors alleged on Appellant’s Brief p9-27 (A125-145), trial
transcript is unnecessary for errors (Jury Misled, Confused By Jury Charge,
Jury Confused and Exhausted By Court, Hill and Williams not excluded from
courtroom, Petitioner’s medical records shall not be admitted, Voir dire
questioning time is inadequate, John didn’t share with petitioner its exhibits
before trial). Hearing and trial transcripts necessary for errors (Inadequate
time for jury charge review and conference, Jury misled by non-admitted
defendant exhibit 1, la and frustrated by non-original Murphy USA video,
Plaintiffs Exhibit 11, 19, 22 were not admitted into evidence, Prejudicial,
irrelevant info read to jury) have already been ordered by Huang,
incorporated into the records on appeal and cited in the relevant place in the
brief. Huang didn’t provide trial transcript for arguments (The court let

19

witness keep testifying even petitioner objected, didn’t instruct jury to
disregard leading questions and answers), the circuit court doesn’t need to
review these two challenges but shall not neglect to review the rest of
challenges in this issue.
A "record of sufficient completeness" does not translate automatically
into a complete verbatim transcript”, Parties don’t need to order full trial
transcript but only the portion of transcript germane to the appeal issues, see
Maye,404 US 189,194-195 (Supreme, 1971). Fifth circuit’s refusal to review
because full trial transcript was not ordered is wrong, against Mayde opinion.
B. Multiple errors during jury trial warrant new trial
New trial is necessary when verdict is against the weight of the
evidence, trial unfair to moving party, substantial evidential or jury
instruction errors occurred, Montgomery Ward & Co,311 U.S.243,
251(Supreme,1940).
1. Inadequate time for jury charge review and conference
On 4/13/2018 trial at 6th floor courtroom, after defendants rested his case,
parties were given court’s jury charge and asked to go to 5th floor because the
court need to use the courtroom for docket call in another case. Huang
walked to 5th floor, his case files left on the courtroom counsel table. Huang
returned twice to courtroom to get pen, scratch-off paper and laptop with his
case files in order to review jury charge. At 5th floor, after booting up his

20

laptop, opening his case files in the laptop, Huang had about only 5 minutes
to review the 14 pages, about 3000 words of jury charge(Al50), then Huang
returned to the court room to get trial notebook to evaluate the jury charge.
Huang wanted to continue reviewing jury charge but the court began charge
conference right away. Huang doesn’t even have time to review the whole
jury charge fully and carefully to find out all the problems on the jury charge
and was pushed to state his objection.
During conference, the court pressured and rushed Huang to state his
objections and relevant legal authority, causing Huang to make wrong
judgment and statement. Transcript (ROA4.2509-2522) shows jury charge
conference lasted about 20 minutes, time spent on each page of jury charge
ranges from 20 seconds to 3 minutes, judge didn’t give Huang time to find
case law (ROA.2513.16-21).
Judge said it give parties about 20 minutes to review jury charge
(ROA.2516:5-7, 2518:8-10). After Huang complained the time is too short,
then Judge changed to 35 minutes and he himself realized the time was
inadequate, “Basically, what we've done for, like, the last 15 minutes is
you've just gone through off the top of your head and stated what you believe
objections” (ROA.2522: 1-12) but still pushed head strongly to submit the jury
charge to the jury. This is extremely irresponsible.
4 / ROA refers to record on appeals at fifth circuit

21

2. Jury Misled, Confused By Jury Charge
2.1. Harmful, fundamental false imprisonment and malicious
prosecution instructions errors
These two instructions are adopted from TX pattern jury charge (2016)
PJC 6.1, PJC 6.4 (A145-147), PJC 6.1,6.4 are broad-form questions and shall
only be used when feasible (PJC 6.1,6.4,4.1 comments, A145-A149). PJC 6.1,
6.4 are too broad and unfeasible to be used in this case as it’s misleading
considering the facts of this case. District judge thought pattern jury
instructions are 100% right and usable in this case (ROA.2064:13-17,
ROA.2066:17-22), this is wrong, see Broadcast Satellite, 323 F. 3d
339,348(5th cir.2003)(Court properly throw out TX pattern jury charge
interrogatory as it’s too broad and proposed narrower interrogatory), Crown
Life Ins. Co., 22 S.W.3d 378, 390(TX supreme,2000) (Broad form TX pattern
jury instructions caused harmful error). Jury charge is at Appendix P.
a. False imprisonment instruction error (page5 5-6):

In this

case it’s Officer Kelemen, not Hill or Williams that arrested Huang. The
instructions " Did Jalea Joechelle Hill falsely imprison Dong sheng Huang?
Did Korea Marie Williams falsely imprison Dong sheng Huang ? will mislead
anyone to think it’s asking if Hill and Williams personally imprisoned Huang.
The answer is clearly NO. Hill and Williams’ liability in false imprisonment

5 Page refers to the he page number on the bottom of the jury charge paper

22

in this case derived from Kelemen’s arrest of Huang, not because Hill and
Williams personally detained Huang. So the proper way to instruct jury
about false imprisonment for Hill, Williams is, as proposed by Huang’s
proposed jury instruction 23(ROA. 1554-1556): (l).Determine if there is false
imprisonment in this case by asking Did Officer Michael Kelemen falsely
imprison Dong sheng Huang? and adding instructions about false
imprisonment element, definitions (2). Determine liable parties for the false
imprisonment by asking What parties were liable for this false imprisonment?
and adding instructions for determining the parties liable for false
imprisonment.
b. Malicious prosecution instruction error (page 7-8): Hill and
Williams’ malicious prosecution liability in this case derived from the
prosecution made by Galveston County District Attorney office. The Question
Number 3 Did Jalea Joechelle Hill maliciously prosecute Dong sheng Huang?
and Question Number 4 Did Korea Marie Williams maliciously prosecute
Dong sheng Huang? will mislead anyone to think it’s asking if Hill and
Williams personally prosecuted Huang, the answer is clearly NO.
As proposed in Huang’s proposed jury instructions 24 (ROA.15571559), the proper way to instruct jury about malicious prosecution for Hill and
Williams is to ask jury series of question regarding each element of malicious

23

prosecution to determine if there is malicious prosecution. Below is a sample
for malicious prosecution instruction for Hill, the same is for Williams.
(1) Was criminal prosecution commenced against Dong sheng Huang? (2). Did
Jalea Hill initiated or procured that prosecution?, adding instructions about
initiated or procured prosecution (3).Did criminal prosecution terminated in
Dong sheng Huang’s favor? adding instructions about when criminal
prosecution is considered terminated in Huang’s favor. (4). Is Dong sheng
Huang innocent of the charges? ,adding instructions about when Huang is
considered innocent of the charges. (5) Did Jalea Hill has probable cause to
initiate the prosecution? Adding instructions how to determine if probable
cause is lacking for Hill. (6) Did Jalea Hill act with malice? adding
instruction about how to evaluate for Hill’s malice. (l)Did Dong sheng Huang
suffer damages? adding instructions about when to consider Huang suffered
damages.
2.2. Page 9 of jury charge is vague and irrelevant.
It is proximate cause instruction for negligence case, irrelevant to claims
in this case, shall not be given here. Plaintiff claimed injury caused by
defendants in this case. Listing Plaintiffs name in the instruction will
mislead jury to think plaintiff may cause injury to himself intentionally or
they shall discount the injuries caused by defendant. It’s vague: it says
resulted from the occurrence in question but doesn’t specify what occurrence

24

in question is. It says any injury but doesn’t specify what type injury it is. It
says proximately caused any injury but doesn’t say what injuries it refers to.
It asks for percentage for each of the person but doesn’t specify what injury
(mental anguish, physical pain etc) the percentage is for.
2.3. Failed to instruct
On page 3, it didn’t instruct all 7 elements of malicious prosecution: (1)
criminal prosecution against the plaintiff;(2) causation by defendant; (3)
termination of the prosecution in the plaintiffs favor;(4) the plaintiffs
innocence;(5)absence of probable cause (6) malice in filing the charge; and(7)
damage to the plaintiff, see Richey,952 SW 2d 515,517(TX Supreme, 1997). On
page 5-6, it didn’t instruct definition of “without legal justification” and
detain so jury can’t tell if Kelemen’s arrest is considered detain, is consider
with or without legal justification. It didn’t instruct jury to how to relate the
liability of Hill, Williams, Murphy in false imprisonment and malicious
prosecution the facts that Huang is arrested by Kelemen and prosecuted by
DA office, not by Hill, Williams, Murphy personally. On page 11, it doesn’t
specify what actions in the scope of their employment that caused injury to
Dong sheng Huang. It didn’t instruct definition of scope of general authority.
The within scope of employment definition is outdated as it was overridden
by new standard in Laverie, 517 SW 3d 748,753(TX supreme, 2017). On page
12, it didn’t instruct how to determine injury or harm is substantial or not

25

substantial? (p 12, 1(1, p!3. ^|3). It didn’t instruct punitive damage: the whole
jury charge doesn’t even mention punitive damage. Punitive damage has
three different causes: fraud, gross negligence, malice, Texas Civil Practices
and Remedies Code 41.003. Only malice is instructed for Hill, Williams,
Murphy(pl3).
2.4. Instructions internally contradictory
On page 2, it says plaintiffs burden of proof is preponderance of evidence,
on page 12-13, it changes to clear and convincing evidence. No burden of
proof is given for instructions from page 5-11. It misleads jury about what
burden of proof to use, Mann, 319 F. 2d 404,410(5th Cir.1963) (whole Jury
instruction must be consistent and not misleading).
2.5. Didn’t rule and instruct plaintiffs theory
Though plaintiff filed proposed jury instructions and memorandum of law
on 8/10/17, then 2nd amended proposed jury verdict form, the court never
ruled on it. The jury charge didn’t instruct jury of plaintiffs theory the case.
2.6 All instructions are too general, not case specific.
The whole charge didn’t introduce to jury the case background, such as
persons involved, the claims in this case, the facts. All instructions are too
general, not linked to specific action, person in this case, forcing jury to guess
its meaning,
3. Jury misled by non-admitted defendant exhibit 1,1a and
frustrated by non-original Murphy USA video.

«>

26

The original Murphy USA gas station store surveillance video is
incorporated into surveillance video company application software and shall
be installed on computer to view it. Petitioner asked the court to let jury use
parties’ computer or to set up the court’s computer in jury room so jury can
watch the original video. The court refused but instructed parties to convert
it to DVD video format on 2/26/2018 trial(ROA.2450:6-2453). This is against
F.R.E Rule 1001, 1002 requiring use of original. Original video was converted
but its image quality dropped, looked a little blurry, hard to see details.
During 4/12/2014 trial, original video was played on Huang’s laptop but not
offered into evidence as there’s no way for jury to use it. Converted video was
admitted as Plaintiffs exhibit 1. On 4/13/2014 trial, John came up with two
1-minute video clips of surveillance video. These video clips were not labeled
as defendant exhibit 1,1A at that time, the court didn’t ask John to lay
foundation for it, didn’t ask Plaintiff for objection, didn’t announce these
video clips were admitted but just let John label and drop into exhibit box
later, petitioner didn’t even know when John labeled and dropped it.
Jury desired to watch the original video Huang played in courtroom
and complained that converted video is blurry, The court stated defendant’s
video is clear but Huang’s video is blurry ,Huang didn’t know what
defendant’s video jury has, and stated it can’t be used since it was not shared
with him and he never saw it. But the court said it’s long day, I’m sorry, he’s

f'

27

not going about this anymore. So judge knowingly refused to correct the video
problem because it’s long day, he is tired.
Petitioner didn’t know defendant’s exhibit 1,1A until he saw it in docket
and quickly filed objection on 4/18/2014. During 5/1/2018 status conference,
Defendant exhibit 1,1A was played for petitioner in jury room. Huang found
out Exhibit 1,1A is about 1 minute (9:27pm-9:28pm) video clip from the 1
hour original video. This is against F.R.E. rule 403 (value outweighed by
misleading jury, confusing issues). Huang filed Supplement Objections to
Defendants Exhibit 1,1 A 5/21/2014. John never shared with petitioner the
Exhibit 1,1A before trial, during trial, after trial and as of today.
Petitioner and defendant each have their own version of incident, the
best way to see the truth is by watching the store surveillance video. It’s
critical that jury can see the details (time, activities etc) on video to see what
really happened but they were frustrate by converted video and misled by
defendant’s video.
4. Plaintiffs Exhibit 11, 19, 22 were not admitted into evidence
District court granted defendant motion in limine regarding insurance
on 4/12/2018 trial (ROA.1728, 1857) and instructed parties not to mention
insurance during trial, so plaintiffs proposed trial exhibit lKMurphys
liability insurance coverage for false imprisonment, malicious prosecution)
was not admitted into evidence during plaintiffs testimony.

S

28

F.R.E 411 doesn’t allow liability insurance to be used prove negligence or
wrong acts but can be used other purposes, such as proving a witness's bias
or prejudice or proving agency, ownership, or control. Exhibit 11 can be use to
prove agency employer/employee relationship among Hill, Williams, Murphy
since petitioner claimed Murphy’s respondeat superior liability. It is relevant
to the compensatory damages and punitive damages claimed in this case,
Wallace, 861 F. 25 Supp.2d 587,602 (Dist. Court, D. Maryland, 2012) (Rule
411 doesn’t prohibit t use of insurance for questions of damages or punitive
damages.) It is relevant for claim payment in this case, as cashiers Hill,
Williams have low income and jury surely will infer their inability to pay
claim. Murphys liability insurance becomes key info for jury to make
judgment in this case, Bernier, 581 F.Supp.71, 78 (District Court, W.D.
Michigan, S.D, 1983)( If jury infer defendant’s inability to pay, liability
insurance become admissible.)
Petitioner shall be allowed to voir dire the jury if any of them work for
insurance or related to Murphy’s insurance company liberty mutual
insurance to exclude interested jury members.
Exhibit 19 is Hill, Williams and Murphy Oil USA Inc’s response to
Plaintiffs interrogatories and request for admission. Exhibit 22 is some pages
of criminal trial transcript of Hill, Williams Kelemen’s testimony. Both
exhibits were taken in by court as offer of proof, not admitted into evidence.

r*
•■v

29

F.R.C.P. Rule 33 said answers to interrogatories can be used to the extent
federal rules of evidence allowed. Both exhibits can be used to establish key
fact in this case: if Huang was asked to leave by cashier. Both exhibits can be
used in conjunction with store surveillance video to tell if cashier lied or not.
District court abused its discretion by not admitting these three exhibits.
5. Hill and Williams not excluded from courtroom
Hill and Williams are defendant party and defendant Murphy Oil USA’s
witness. Petitioner motioned for sequestration of Hill and Williams on
3/14/2018, judge denied the motion on 4/12/2018 trial. To prevent witness
Hill and Williams from tailoring their testimony to testimony of earlier
witnesses and tailoring their testimony to what's happening at court room,
Hill and Williams shall be excluded from court room before they are called in
for testifying, see Miller,Q50 F. 2d 1365,1373 (5th Circuit. 1981). This doesn't
violate Hill and William's due process as their rights are represented by their
Counsel, Helminski, 766 F. 2d 208,214 ( 6th Circuit, 1985)(parties don’t have
absolute right to be present at civil trial, its right to be present may be
sufficiently protected by their counsel). Failure to exclude caused Hill and
Williams to gain knowledge from other witness testimony, from parties’ case
presentation and affected their testimony. This was proved by Witness
Williams testimony during trial when she testified she changed her

30

statement after watching the Murphy Oil USA store surveillance video
during the trial.
III. Fifth circuit erred in failing to enforce confidentiality discovery
order and protecting petitioner's medical records and contravened
supreme court precedent.
A. Fifth circuit erred in affirming breach of confidentiality order
1. John violated confidentiality order three times knowingly
Petitioner’s medical records were confidential and prohibited from
disclosure without authorization, see Texas Health And Safety Code Chapter
611 Sec. 611.002. They are designated as confidential information, heightened
protection, attorney’s eyes only and shall be filed under seal per
Confidentiality Order section 2(b) ,7 (A039). Motion for leave to file under
seal is required to file these records, see Judge Hanks’ procedure 6(C)(7)
(ROA.503), but Counsel John for Hill, Williams and Murphy Oil USA Inc
knowingly violated the confidentiality order three times.
First time: Petitioner served Plaintiffs Response to Defendant Hill,
Williams, Murphy’s First Set of Interrogatories(“Plaintiffs response”), which
contain petitioner’s medical records and are designated as Confidential,
Attorney’s Eyes Only per Stipulated Confidentiality Order 2(b). On 11/28/16
John filed motion for partial summary judgment (District Dkt 84, sealed after
judge order), attaching Plaintiffs Response as Exhibit B unsealed. Petitioner

31

notified John of the breach and discussed with John via email on 11/29/2016.
John promised to call petitioner to discuss but never called back.
Second time: John willfully filed the same motion for partial summary
judgment with Exhibit B unsealed on 12/21/2016(District Dkt 88, sealed after
judge order). On 12/21/2106 John also filed withdrawal of motion for partial
summary judgment of defendants: Jalea Joechelle Hill,asking Dkt 84 be
expunged from court’s file and Amended withdrawal of motion for partial
summary judgment of defendants: Jalea Joechelle Hill and asking Dkt 84
and 88 be expunged from court’s file (ROA.835-840).
Third time: Defendant’s jury trial exhibits 7 and 8 (District Dkt No.
253,254, restricted) are petitioner’s medical records, shall be filed under seal
but John filed it under restricted on 4/17/2018. Sealed documents can be
viewed only to judge, restricted documents can be viewed, printed,
photographed or saved it to USB flash drive by anyone in the clerk's office
and any visitors using public computer at the clerk's office.
These violations are intentional, bad faith as John knew the
confidentiality order, but violated three times, intending to cause damage to
petitioner. Exhibit B have been in the court filing system for public view
since 11/28/2016 and not sealed until the court ordered it to be sealed
on l/6/2017(ROA. 1027). It’s also available for public view and purchase on
commercial websites such as www.lawsuitdata.com,www.pacer.com,

<+

32

https:/dockets.justia.com/, westlaw etc. Defendant’s jury trial exhibits 7 and 8
were still not sealed from 4/17/2018 till today.
2. Fifth circuit shall punish respondent and compensate petitioner
John violated confidentiality order, caused damages to petitioner.
Willfulness or innocent of action is not concern but court shall enforce
compliance with order and compensate for damages suffered by petitioner,
McComb, 336 US 187,192 (Supreme, 1949). Court has imposed various
sanctions for such violations before: Salmero, 579 F.3d 787 (7th Cir.
2009)(dismissal with prejudice for willful violations 3 times), Hammond
Packing Co, 212 U.S. 322,349-54(US Supreme,1909) (default judgment).
Petitioner motioned district court for sanction twice, but district court denied
it on 7/24/2017 (ROA.1109-1117, 1313, A047), on 6/25/2018(ROA.2022, 2041).
District court simply ordered sealing of the exposed documents, no remedy for
petitioner damages, no penalty for John’s violations was ordered. This is
abuse of discretion, shall be reversed but fifth circuit didn’t.
3. Relief Requested
Appellate courts can remedy the improper disclosure of privileged
material in the same way they remedy a host of other erroneous evidentiary
rulings, Mohawk Industries, Inc. 558 US 100,602(Supreme, 2009). Petitioner
asked the court to:

*y\

33

a. For exhibit B and defendant trial exhibits?, 8 (1). order all parties in
this case that received these documents to expunge it and certify such
expungement to the court and petitioner. If the info on confidential
documents was disseminated to third parties already, the parties shall certify
to the court the expungement of third parties sources, including third party
source name, date of expungement. (2). order these documents be deleted
from the court's efiling system. (3). prohibit defendants Hill, Williams and
Murphy from use of any info in these documents for their defense in this case.
b. prohibit Hill, Williams, Murphy and counsel John from use and
discovery of any of the petitioner’s medical info for any purpose on any
occasion.
c. award default judgment in the amount of $2.5 million to petitioner,
vacate judgment for Hill, Williams, Murphy entered in this case.
d. award all costs petitioner incurred in this litigation.
e. disqualify counsel John Wittenmyer in this case and counsel to
personally

pay damage amount of $300,000 to petitioner.

f. order return of all petitioner’s records possessed by Hill, Williams,
Murphy and their counsel and certify such return to the court and petitioner.
g. authorize petitioner f to request any further reliefs necessary for other
damages found if petitioner so desires in the future.
B. Petitioner’s medical records shall not be disclosed and used as
defendant’s trial exhibit 7, 8

34

On 2/28/2018, district judge ordered Huang to provide his psychiatric
medical records to defendant or it will bar Huang from seeking mental
anguish or medical expenses (District Dkt 211,sealed). District court ordered
these medical records again on two separate orders on 3/8/2018, 3/9/2018
(A050). Huang had to provide these records to defendant counsel John. Judge
admitted these records as defendant trial exhibit 7,8. John later filed those
into the court’s e-filing system (Dist Dkt 253,254).
District court erred by ordering disclosure of these records, barring
Huang’s mental anguish/medical expense claim if not complying with order.
F.R.C.P. 26(b)(1) doesn’t allow discovery about privileged matters. Federal
courts recognize psychotherapist-patient privilege which protects from
compelled disclosure confidential communications between a licensed
psychiatrist or psychologist and a patient made in the course of diagnosis or
treatment. It also extends to confidential communications with licensed social
workers in the course of psychotherapy, Jaffee, 518 US 1,15-16
(Supreme, 1996). Petitioner’s claims in this case are based upon the 1/5/2014
arrest incident. Medical records ordered by judge are before 1/5/2014,
irrelevant to the petitioner’s claims in this case.
Fifth circuit’s affirmation of district court order (A004) contravened
supreme court instructions and caused damages to Huang . The courts can

A

35

remedy the improper disclosure of privileged material by vacating an adverse
judgment, Mohawk Industries, Inc, 558 US 100,602(Supreme 2009).
IV. Fifth circuit shall revoke district judge’s appeal certification
and order district judge recusal.
A. Appeal certification is against supreme court precedent
District Judge certified appeal will not be good faith and revoked
Huang’s in forma pauperis status on 5/31/2018, denied Huang’s motion to
reconsider on 6/29/2018 (A051,A053).
"Good faith" is demonstrated when a party seeks appellate review of
any issue "not frivolous... does not require that probable success be shown.
The inquiry is limited to whether the appeal involves "legal points arguable
on their merits (and therefore not frivolous).”Howard, 707 F.2d215, 220(5th
Cir, 1983). As 5th circuit can see on Huang’s brief, the issues on appeal have
factual and legal merits so it’s good faith. The district court erred in its
certification and revoking Huang’s IFP status, 5th circuit also erred in
1/25/2019 order denying Huang’s motion to proceed in IFP in 5th circuit.
District court never stated the issues are frivolous except in its appeal
certification. District court wrongly used post hoc reasoning(because plaintiff
didn’t prevail so appeal will be frivolous) in its certification, this is against
supreme court opinion in Christiansburg Garment Co, 434 US
412,422(Supreme, 1978) (not to use post hoc reasoning by concluding that,

36

because a plaintiff did not ultimately prevail, his action must have been
unreasonable or without foundation).
B. District judge shall recuse per 28 U.S.C §455
Under 28 U.S.C §455, the standard for impartiality is whether "a
reasonable and objective person, knowing all of the facts, would harbor
doubts concerning the judge's impartiality." see In re Chevron U.S.A., 121
F.3d 163, 165 (5th Cir. 1997).Under §455(a), what matters is not the reality
of bias or prejudice, but its appearance, Lileky, 510 U.S. 540, 548,
(Supreme, 1994).
Petitioner questioned the impartiality of district Judge in this case and
believed he has a personal bias or prejudice against petitioner based on
following observations. Lileky, 510 U.S. 540,555(Supreme, 1994) (Judge’s
opinions are basis for a bias or partiality if they display a deep-seated
favoritism or antagonism that would make fair judgment impossible).
Petitioner motioned district judge to recuse but was denied with no reasons
stated(A054). fifth circuit wrongly affirmed the denial (A005).
1. Refused to disclose records
During 5/1/2018 8:30am status conference, Judge stated he remembered
he said to parties that parties were given 20 minutes to review jury charge
during trial, but after he checked record, it’s 1 hour . Petitioner categorically
denied it’s 1 hour and asked for the record. Judge refused to identify/disclose

37

record. During 5/31/2018 hearing Judge stated parties were given 1 hr to
review jury charge from 4:30pm to 5:30pm. Petitioner asked Judge for the
source of record, judge didn’t answer . Petitioner motioned court for the same
information, Judge denied it .The court had perception of petitioner’s
questionable ethics and misrepresentations to the Court on its 5/3/2018 order
Such perception is prejudicial to petitioner. Petitioner motioned the court to
disclose these misrepresentations and questionable ethics and the supporting
proof .Judge denied it
2. Refused to order record correction
Judge denied petitioner’s motion to correct/ complete following records,
(ROA.1967, 1996): (1). Jury charge (ROA. 1858-1861) has only general
instruction and no special interrogatories and verdict form. (2). 4/13/2018
trial minutes (ROA. 1855-1856) missed following info: No.3: cross
examination of Ahrum Kim, No. 4: cross examination of Kenneth Truckner,
No.5: cross examination of Tracy Larsen, No.8: cross examination of Jalea
Hill, No.9: cross examination of Karea Williams. After No. 10 (Defendants rest
their case), petitioner made motion for directed verdict during jury trial, it's
not recorded in the trial minutes.
3. Refused to protect petitioner’s right and interest.
Judge refused to seal confidential documents wrongly filed into efiling
system by defendant counsel John, refused to sanction John for his breach of

"N

-*
••41. •

*

38

discovery confidential orders and to compensate petitioner’s damages,
wrongly ordered disclosure ofpetitioner’s medical records. These conducts
damaged petitioner’s interest.
4. Treat petitioner unfairly
Judge denied petitioner’s request to use court’s efiling system to file
documents for saving litigation cost and facilitating communication. It
positioned petitioner in disadvantage position, considering respondents can
use e-filing system with ease and no cost. Judge further restricted petitioner’s
communication with court by ordering petitioner to file written request for
conference with court when asking Clerk’s Office for information regarding
this or any other case on the Court’s docket (ROA.1946).
5. Refused to consider merit issues on petitioner’s pleading
Judge never stated petitioner’s claims were frivolous until his
certification of not-good-faith appeal. No reasons were provided for
certification. There were plenty of issues with merit in the pleading, e.g. on
petitioner’s motion for new trial (ROA.1919) and motion to reconsider the
court’s M&O (ROA.887), but Judge Hanks intentionally disregarded it.
6. Intentionally misinterpreted petitioner’s statements to
support its opinion
Judge misinterpreted Huang’s factual allegations intentionally to
support its argument that Kelemen’s arrest has probable cause, see footnote
3 at page 10 on this petition. In its summary judgment opinion, judge wrote:

1*

♦

39

"... he relied on these deemed admissions in deciding not to seek additional
discovery and in deciding not to ask this Court to extend the discovery
period” (ROA.1321, footnote), the truth is petitioner asked court for extending
discovery deadline but the court denied it (ROA. 1004-1008, 1020).
7. Created litigation problems to petitioner and refused to correct it
On 4/13/2018 trial, Judge rushed parties through jury charge review and
conference that it became farce. Judge ordered conversion of original Murphy
USA store surveillance video, but didn’t correct the converted video blurry
image problem when notified by petitioner. Judge let defendant drop nonadmitted surveillance videos and defendants’ exhibit for jury use. Petitioner
notified judge of this entire problem on his motion for new trial but judge
intentionally refused to correct it.
V. Supreme Court shall use its supervisory power to correct lower
courts’ outrageous, unjust conducts
As discussed above, District court misstated facts, went against Supreme
Court instructions in precedent cases, committed a lot of ridiculous errors,
dismissed the 4th amendment, 14th amendment claims and messed up the
jury trial. District court gave parties absurd short time to review and discuss
jury charge, prepared wrong jury charge, blatantly disregarded the truth, and
violated the federal rules of evidence for using original evidence and
procedure for admitting evidence. These misconducts shall be corrected by

X
£*

40

fifth circuit but fifth circuit failed to do its duty either. So it’s time for
Supreme Court to use its supervisory power to correct it.
VI. Questions involved are of exceptional public importance.
The proceeding concerns the fundamental 4th amendment and 14th
amendment constitutional rights that protect US public from unreasonable
arrest and prosecution by government through federal law. It also concerns
the rights that protect Texas public from false imprisonment and malicious
prosecution by state.
Lower court’s resolutions of the issues in this case conflicted with
precedents of US Supreme and circuit courts, diminished public trust in
justice of the court, and exhibited a bad example for other courts. Proper
resolution of these issues will further public interest and public trust in the
legal system.
CONCLUSION
The petition for a writ of certiorari shall be granted.
Date: 7/31/2020
Respectfully Submitted
Dong sheng Huang
8826 Neff street, Houston,TX, 77036
Tel: 408-646-9007, Email: lockerp@yahoo.com

